                                                                      O FFICE OF A UDIT S ERVICES , R EGION I
                                                                                    JFK F EDERAL B UILDING
                                                                     15 N EW S UDBURY S TREET, R OOM 2425
                                                                                       B OSTON , MA 02203

May 21, 2012

Report Number: A-01-11-00515

Ms. Jennifer Parks
Chief Integrity and Compliance Officer
Fletcher Allen Health Care, Inc.
1 South Prospect Street
Burlington, VT 05401

Dear Ms. Parks:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector General
(OIG), final report entitled Fletcher Allen Health Care Did Not Always Bill Correctly for Evaluation and
Management Services Related to Eye Injection Procedures. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response should
present any comments or additional information that you believe may have a bearing on the final
determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at Kimberly.Rapoza@oig.hhs.gov.
Please refer to report number A-01-11-00515 in all correspondence.

                                                  Sincerely,




                                                  /Michael J. Armstrong/
                                                  Regional Inspector General
                                                    for Audit Services

Enclosure
Page 2 – Ms. Jennifer Parks


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



FLETCHER ALLEN HEALTH CARE
    DID NOT ALWAYS BILL
 CORRECTLY FOR EVALUATION
 AND MANAGEMENT SERVICES
  RELATED TO EYE INJECTION
        PROCEDURES




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-01-11-00515
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B reimburses hospitals and physicians for certain eye injection procedures
administered to program beneficiaries when the procedures are performed in hospital outpatient
settings. In addition to the reimbursement for the injection procedure, hospitals and physicians
may be eligible for an additional payment for a separate evaluation and management (E&M)
service when the service is significant, separately identifiable, and above and beyond the usual
preoperative work of the eye injection procedure (Medicare Claims Processing Manual, Pub.
No. 100-04, chapter 12, section 30.6.6(B)). E&M services are visits and consultations furnished
by physicians during which they examine the patient and decide how to manage the patient’s
illness.

Fletcher Allen Health Care, Inc. (the Hospital), is a 419-bed teaching hospital located in
Burlington, Vermont. The Hospital bills Medicare for the overhead associated with outpatient
medical services performed at the Hospital and bills on behalf of its physicians for the professional
services that they perform in the Hospital’s outpatient settings.

Our current review is the result of findings identified in a previous Office of Inspector General
(OIG) review at the Hospital that was part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services. In June 2011, we issued a
report entitled Medicare Compliance Review of Fletcher Allen Health Care for Calendar Years
2008 and 2009 (A-01-10-00527). We found that the Hospital did not fully comply with
Medicare billing requirements for selected outpatient claims for E&M services billed with
surgical services. These surgical services included eye injection procedures.

Our current audit covered $279,115 in Medicare payments, consisting of $180,910 to the
Hospital for 2,871 outpatient hospital E&M services and $98,205 to its physicians for 2,649
corresponding E&M services. The services had dates of service in calendar years (CY) 2008
through 2010.

OBJECTIVE

Our objective was to determine whether the Hospital and its physicians complied with Medicare
requirements for separately billable E&M services related to outpatient eye injection procedures
for CYs 2008 through 2010.

SUMMARY OF FINDINGS

The Hospital and its physicians did not always comply with Medicare requirements for
separately billable E&M services related to outpatient eye injection procedures. The Hospital
correctly billed for 15 of the 100 E&M services that we sampled. However, the Hospital
incorrectly billed for the remaining 85 services. The incorrect billing resulted in overpayments
totaling $8,063.



                                                   i
Based on these sample results, we estimated that the Hospital and its physicians received
overpayments totaling $211,196 for CYs 2008 through 2010. The Hospital and its physicians
were not eligible for the additional E&M payments since the services that the physician
performed were not significant, separately identifiable, and above and beyond the usual
preoperative work of the eye injection procedure. Overpayments occurred because the Hospital
had inadequate billing system controls over billing E&M services related to outpatient eye
injection procedures, and the Hospital’s physicians, who performed the eye injection procedures,
did not fully understand the Medicare requirements for separately billable E&M services.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $211,196 in estimated overpayments,

   •   strengthen controls in the billing system to ensure full compliance with Medicare
       requirements, and

   •   strengthen its education to physicians regarding separately billable E&M services related
       to eye injection procedures.

FLETCHER ALLEN HEALTH CARE COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital stated that it (1) will refund the overpayments to the Medicare
contractor, (2) has strengthened controls to comply with Medicare requirements, and (3) has
strengthened its education to physicians. The Hospital’s comments are included in their entirety
as Appendix C.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Evaluation and Management Services Performed With a Surgical Procedure .............1
         Eye Injection Procedures ...............................................................................................1
         Fletcher Allen Health Care, Inc. ....................................................................................1
         Prior Office of Inspector General Review. ....................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
         Objective ........................................................................................................................2
         Scope ..............................................................................................................................2
         Methodology ..................................................................................................................2

FINDINGS AND RECOMMENDATIONS ..............................................................................3

      INCORRECTLY BILLED EVALUATION AND MANAGEMENT SERVICES ..............4
         Medicare Requirements .................................................................................................4
         Results of Sample ..........................................................................................................4
         Estimate of Overpayments .............................................................................................5

      RECOMMENDATIONS .......................................................................................................5

      FLETCHER ALLEN HEALTH CARE COMMENTS AND OFFICE OF INSPECTOR
       GENERAL RESPONSE .....................................................................................................5

APPENDIXES

      A: SAMPLE DESIGN AND METHODOLOGY

      B: SAMPLE RESULTS AND ESTIMATES

      C: FLETCHER ALLEN HEALTH CARE COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Medicare Part B reimburses hospitals and physicians for certain eye injection procedures
administered to program beneficiaries when the procedures are performed in hospital outpatient
settings. In addition to the reimbursement for the injection procedure, hospitals and physicians
may be eligible for an additional payment for a separate evaluation and management (E&M)
service. The additional payment reimburses (1) hospitals for overhead expenses associated with
furnishing E&M services to program beneficiaries when the services are performed in hospital
outpatient settings and (2) physicians for their professional E&M services related to medical and
surgical procedures they provide in hospital outpatient settings.

The Centers for Medicare & Medicaid Services (CMS) contracts with Medicare contractors to,
among other things, process and pay claims submitted by hospitals. 1

E&M services are visits and consultations furnished by physicians to new or established patients.
During visits, the physician evaluates the patient by using the presenting illness and clinical
judgment regarding the patient’s condition to determine the options available to manage the
illness. An E&M service has three required elements in which the physician must (1) review the
history of the illness with the patient, (2) examine the patient, and (3) make a medical decision to
manage the illness.

Evaluation and Management Services Performed With a Surgical Procedure

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 12, section 30.6.6(B), states
that a Medicare contractor pays for an E&M service that is significant, separately identifiable,
and above and beyond the usual preoperative work of the eye injection procedure.

Eye Injection Procedures

Certain eye conditions are treated by an eye injection procedure. For example, wet age-related
macular degeneration, which is the leading cause of severe vision loss in people over the age of 65 in
the United States, can be treated by a physician administering drugs via intravitreal injection.

Fletcher Allen Health Care, Inc.

Fletcher Allen Health Care, Inc. (the Hospital), is a 419-bed teaching hospital located in
Burlington, Vermont. The Hospital bills the Medicare contractor for the overhead associated with
outpatient medical services performed at the Hospital and bills on behalf of its physicians for the
professional services that they perform in the Hospital’s outpatient settings.
1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For the purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable.

                                                         1
Prior Office of Inspector General Review

Our current review is the result of findings identified in a previous Office of Inspector General
(OIG) review at the Hospital that was part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services. In June 2011, we issued a
report entitled Medicare Compliance Review of Fletcher Allen Health Care for Calendar Years
2008 and 2009 (A-01-10-00527). We found that the Hospital did not fully comply with
Medicare billing requirements for selected outpatient claims for E&M services billed with
surgical services. These surgical services included eye injection procedures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital and its physicians complied with Medicare
requirements for separately billable E&M services related to outpatient eye injection procedures
for calendar years (CY) 2008 through 2010.

Scope

Our current audit covered $279,115 in Medicare payments, consisting of $180,910 to the
Hospital for 2,871 outpatient hospital E&M services and $98,205 to its physicians for 2,649
corresponding E&M services. These services had dates of service in CYs 2008 through 2010.

We focused our review on E&M services related to outpatient eye injection procedures, which
we identified during and as a result of our prior OIG review at the Hospital.

We evaluated compliance with billing requirements but did not use focused medical review to
determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to billing E&M
services with eye injection procedures because our objective did not require an understanding of
all internal controls over billing E&M services with surgical procedures. Our review enabled us
to establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork at the Hospital in July 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital and physician outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 through 2010;

                                                2
   •   used computer matching to identify E&M services billed with eye injection procedures;

   •   selected a simple random sample of 100 outpatient E&M services, some of which
       included corresponding physician services, from the sampling frame of services that were
       potentially billed incorrectly (Appendix A), and for the 100 services, we:

           o reviewed available data from CMS’s Common Working File to determine
             whether the services had been cancelled or adjusted,

           o reviewed the itemized bills and medical record documentation provided by the
             Hospital to support the services,

           o requested that the Hospital conduct its own review of the services to determine
             whether they were billed correctly, and

           o discussed the incorrectly billed services with Hospital officials to determine the
             underlying causes of noncompliance with Medicare requirements;

   •   discussed selected E&M services with the Medicare contractor;

   •   reviewed the Hospital’s procedures for billing E&M services with eye injection
       procedures;

   •   determined the overpayments for the sampled services;

   •   estimated the total value of overpayments in the sampling frame; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital and its physicians did not always comply with Medicare requirements for
separately billable E&M services related to outpatient eye injection procedures. The Hospital
correctly billed for 15 of the 100 E&M services that we sampled. However, the Hospital
incorrectly billed for the remaining 85 services. The incorrect billing resulted in overpayments
totaling $8,063.

Based on these sample results, we estimated that the Hospital and its physicians received
overpayments totaling $211,196 for CYs 2008 through 2010. The Hospital and its physicians
were not eligible for the additional E&M payments since the services that the physician

                                                3
performed were not significant, separately identifiable, and above and beyond the usual
preoperative work of the eye injection procedure. Overpayments occurred because the Hospital
had inadequate billing system controls over billing E&M services related to outpatient eye
injection procedures, and the Hospital’s physicians, who performed the eye injection procedures,
did not fully understand the Medicare requirements for separately billable E&M services.

INCORRECTLY BILLED EVALUATION AND MANAGEMENT SERVICES

Medicare Requirements

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 12, section 30.6.6(B), states
that a Medicare contractor pays for an E&M service that is significant, separately identifiable,
and above and beyond the usual preoperative work of the eye injection procedure.

Results of Sample

The Hospital and its physicians did not always comply with Medicare requirements for
separately billable E&M services related to outpatient eye injection procedures. We sampled
100 E&M services valued at $9,695 and 15 were correctly billed. However, the remaining 85
were incorrectly billed. The Hospital and its physicians were not eligible for the additional E&M
payments since the services that the physician performed were not significant, separately
identifiable, and above and beyond the usual preoperative work of the eye injection procedure.


                          Example: Incorrectly Billed E&M Service

 A beneficiary arrived at the Hospital for an outpatient eye injection procedure on January 19,
 2010. The physician performed the procedure, and the Hospital correctly billed Medicare and
 received payments totaling $310 ($190 for the Hospital and $120 for its physician).

 In addition, on January 19, 2010, the Hospital billed Medicare for separate E&M services and
 received additional payments totaling $80 ($61 for the Hospital and $19 for its physician).
 The Hospital and its physician were not eligible for the additional E&M payments since the
 services that the physician performed were not significant, separately identifiable, and above
 and beyond the usual preoperative work of the eye injection procedure. As a result, the
 Hospital and its physician received overpayments totaling $80.


The Hospital attributed the billing errors to inadequate billing system controls over billing E&M
services related to outpatient eye injection procedures, and the Hospital’s physicians, who
performed the eye injection procedures, did not fully understand the Medicare requirements for
separately billable E&M services. Specifically, the Hospital stated that its physicians incorrectly
believed that the care they provided allowed for separately billable E&M services. However, the
care was part of the usual preoperative work of the eye injection procedure.




                                                 4
As a result of the 85 incorrectly billed E&M services, the Hospital and its physicians received
overpayments totaling $8,063.

Estimate of Overpayments

Based on these sample results, we estimated that the Hospital and its physicians received
overpayments totaling $211,196 ($143,531 for the Hospital and $67,665 for its physicians)
(Appendix B) for CYs 2008 through 2010.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $211,196 in estimated overpayments,

   •   strengthen controls in the billing system to ensure full compliance with Medicare
       requirements, and

   •   strengthen its education to physicians regarding separately billable E&M services related
       to eye injection procedures.

FLETCHER ALLEN HEALTH CARE COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital stated that it (1) will refund the overpayments to the Medicare
contractor, (2) has strengthened controls to comply with Medicare requirements, and (3) has
strengthened its education to physicians. The Hospital’s comments are included in their entirety
as Appendix C.




                                                5
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Fletcher Allen Health Care’s (the Hospital) calendar years 2008
through 2010 Medicare outpatient claims that contained line items for evaluation and
management (E&M) services billed with an eye injection procedure (billing code 67028).

SAMPLING FRAME

The sampling frame consisted of 2,871 E&M services related to outpatient eye injection
procedures. Each service contained an outpatient line item for an E&M service billed by the
Hospital, some of which included a matching Part B physician service line item for an E&M
service billed by the Hospital on behalf of its physicians. There were 2,871 outpatient services
with a total line paid amount of $180,910 and 2,649 physician services with a total line paid
amount of $98,205. Not every outpatient service had a matching physician service.

SAMPLE UNIT

The sample unit was an E&M service.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 E&M services.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLED ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the dollar value of overpayments.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                      Sample Results

Evaluation
and
Management       Frame    Value of     Sample    Value of    Services With  Value of
Services          Size     Frame        Size     Sample      Overpayments Overpayments
Hospital          2,871   $180,910      100       $6,410          85             $5,390
Corresponding
                           $98,205                $3,285          75             $2,673
Physician*
Totals                    $279,115                $9,695                         $8,063

*
We reviewed 100 of the 2,871 outpatient hospital E&M services in the sampling frame, some of
which included a corresponding Part B physician service.



                            Estimated Value of Overpayments
                  (Limits Calculated for a 90-Percent Confidence Interval)

                                      Outpatient            Corresponding
                                       Hospital               Physician
                                     Overpayments           Overpayments
               Point Estimate              $154,746                   $76,745
               Lower Limit                 $143,531                   $67,665
               Upper Limit                 $165,961                   $85,826
                                                                                         Page 1 of 2
         APPENDIX C: FLETCHER ALLEN HEALTH CARE COMMENTS

                                Fletcher
                            H~!!~~~           .~
                                 bl alliance with 

                             The University of VermoIH 



May 8, 2012                                                    Via UPS Next Day Delivery



Michael J. Armstrong
Regional Inspector General for Audit Services
Department of Health and Hwnan Services
Office of Audit Services, Region 1
JFK Federal Building
15 New Sudbury Street, Room 2425 .
Boston MA 02203

Re:    Repolt Number A-OI - I1 -00515

Dear Mr. Armstr@.g:

I am writing to provide comments on behalf of Fletcher Allen Health Care (Fletcher
Allen) to the draft report entitled "Fletcher Allen Health Care Did Not Always Bill
Correctly for Evaluation and Management Services Related to Eye Injection Procedures '.'
Fletcher Allen concurs with the report findings and has additional comments, below.

As noted in the draft report, the Office of Inspector General (OIG) O$e of Audit
Services reviewed a sample of 100 evaluation and management (E&M) services prori ded
with eye injection procedures during calendar years 2008 through 2010. The OIG, as
well as Fletcher Allen certified professional coders, reviewed the medical records
associated with the 100 claims. The OIG concluded, and Fletcher Allen concurs, that the
documentation did not support a claim for a separate E&M service in 85 ofthe 100
records reviewed. These findings were then extrapolated to all E&M procedures
provided with an eye injection during calendar years 2008 - 2010.

The billing errors occurred because the providers believed in good faith that the cart5hey
provided included a separately billable E&M service. In all ofthe sampled claims, the
provider not only assessed and prepared the patient for the eye injection and provided the
injection, he or she also examined the patient's other eye and assessed the potential
effects of the patient's other conditions, such as diabetes and hypertension, on that eye.
The providers feel that this approach promotes efficient and high quality medical care,
and likely reduces the need for additional visits. On further review of these claims by
certified coders, however, Fletcher Allen recognizes that the documentation in 85 claims
did not support a separately billable E&M service because one component of the E&M
service (medical decision making) was not documented regarding the eye not receiving
the injection.




MEDICAL CENTER CAMPUS       111 Colchester Avenue   Burlingt 8. vr0540t-t429   802.847.2345
                                                                                     Page 2 of 2




 Our responses to the OIG's recommendations are set forth below.

 1. 	     Refund to the Medicare contractor overpayments of$211,196.

          We will refund the overpayments to the Medicare Administrative Contractor
         . (MAC). We understand that the MAC will issue a demand letter with repayment
          instructions.


 2. 	     Strengthen controls in the billing system to ensure full compliance with Medicare
          requirements.

          Fletcher Allen has strengthened controls in its billing system. We have instituted
          an edit to hold any claim for an E&M service billed with an intravitreal injection.
          A certified coder releases the claim only if, after reviewing the documentation
          associated with the E&M service, he or she confirms that it supports the claim.

 3. 	     Strengthen education to physicians regarding separately billable E&M services
          related to eye injection procedures.

          We have provided and will continue to provide additional education to physicians
          related to billing a separate E&M service with a procedure.

 Fletcher Allen will continue to monitor and audit claims and institute additional controls
 if necessary.

 Thank you for the opportunity to comment on the draft report. Please contact me if you
 need any additional infonnation.


 Sincerely,



J:      ;,uv&?a-Jw.­
   ennifer Parks
 Chief Compliance Officer
 Fletcher Allen Health Care
                            .


 J elmifer.Parks@vtmednet.org
